CERTIFICATE OF COMPLIANCE

No. 07My Client(s)
Noah T. Ballard
pro se Noah T. Ballard

Petitioner

v.
My Opponents
John T. Gwin, Abby Rose Rubenfeld,
Respondents
Lisa Pettibone Webb, Megan Williams,
Mathew Bowen, Susan Martin

As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains 8.915 words, excluding the parts of
the petition that are exempted by the Supreme Court Rule 33.1(d).
I declare under the penalty of perjury that the foregoing is true and
correct.
Executed on August. 19. 2019

Pro Se, Noah T. Ballard
636 Weatherbeaten Place
Hermitage, TN 37076
Tel. 615-513-0412

Hello, Dear Susan,
$300,00, payable to the US Supreme Court, Court Clerk's Office.
The enclosed 8 1/2" X 11" booklet, and Certificate of Compliance, signatures are
originals.
An 8 1/2" X 11" booklet, And, 40 identical booklets, and all of my signatures will be
originals.
A receipt, for proof of service to the six Respondents, of three copies each, a total of
18 copies, additionally, an 8 1/2" X 11" booklet, to the eyewitness, mailed via
certified USPS copies enclosed.
Again, it's with the Greatest Appreciation, Regard, and Thanks for your Generous,
Kind, Patient, and Unwavering Guidance, as Justice is a Very Dear, Precious,
Blessing, from which I Wholeheartedly, Pray, will Prevail!

Thanks Very Much,
Hapless, Pro Se, Semper Fi.

Noah T. Ballard
636 Weatherbeaten Place,
Hermitage, TN 37076
1-615-513-0412

